                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: Al3050058                                                                      Page 1 of 1


         NSF OIG received an allegation regarding misuse of funds in connection with a funded NSF
         proposa1. 1 Our analysis identified potentially problematic charges to the grant, so we contacted
         the Subject's 2 institution3 to request supporting documentation for the recorded expenses. Based
         on the information provided, we ascertained that the questionable costs were coded improperly in
         the university's accounting system. After requesting additional records to confirm the coding
         error, we determined that the spending on the grant appears to be on track and no unallowable
         charges were made.

         Therefore, there is no evidence to substantiate an allegation of misuse of funds. Accordingly, this
         case is closed with no further action taken.




NSF OIG Form 4 (ll/02)
